wr

@OCKLE

2311 Douglas Street ; E-Mail Address:
Omaha, Nebraska 68102-1214 Le ga 1B r ie fs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-565

ANTONIO PASSARO, JR., PETITIONER
COMMONWEALTH OF VIRGINIA, ET AL.
AFFIDAVIT OF SERVICE
I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 9th day of December, 2019, send out
from Omaha, NE 1 package(s) containing 3 copies of the BRIEF IN OPPOSITION in the above entitled case. All parties

required to be served have been served by third-party commercial carrier for delivery within 3 calendar days. Packages were
plainly addressed to the following:

SEE ATTACHED
To be filed for:

MARK R. HERRING TOBY J. HEYTENS
Attorney General Solicitor General

SAMUEL T. TOWELL Counsel of Record
Deputy Attorney General MARTINE E. CICCONI

SARAH F. ROBB MICHELLE S. KALLEN
Assistant Attorney General Deputy Solicitors General

JESSICA MERRY SAMUELS

Assistant Solicitor General
ZACHARY R. GLUBIAK

John Marshall Fellow
OFFICE OF THE

ATTORNEY GENERAL
202 North Ninth Street
Richmond, Virginia 23219
(804) 786-7240
solicitorgeneral@oag.state.va.us

Subscribed and sworn to before me this 9th day of December, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

ee  Crblletee hk Ohh
State of Nebraska ° ,

My Commission Expires Nov 24, 2020
Notary Public Affiant

 

 

38984
SERVICE LIST

Pratik Arvind Shah, Esquire

Akin Gump Strauss Hauer & Feld, LLP
2001 K Street N.W.

Washington, DC 20006

(202) 887-4210

pshah@akingump.com
